     OFFICE ON VIOLENCE AGAINST WOMEN 

LEGAL ASSISTANCE FOR VICTIMS GRANT PROGRAM 

            ADMINISTERED BY THE 

     COMMUNITY LEGAL AID SOCIETY, INC. 

           WILMINGTON, DELAWARE 




          U.S. Department of Justice 

        Office of the Inspector General 

                 Audit Division 



         Audit Report GR-70-10-005 

                 July 2010

                OFFICE ON VIOLENCE AGAINST WOMEN 

           LEGAL ASSISTANCE FOR VICTIMS GRANT PROGRAM 

                       ADMINISTERED BY THE 

                COMMUNITY LEGAL AID SOCIETY, INC. 

                      WILMINGTON, DELAWARE 


                              EXECUTIVE SUMMARY 


       The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of an Office on Violence Against Women
(OVW) Legal Assistance for Victims Grant Program award, grant number
2005-WL-AX-0056, awarded to the Community Legal Aid Society, Inc.
(CLASI). Between July 2005 and September 2007, OVW awarded CLASI a
total of $891,422 distributed through a grant and two supplements. The
purpose of the OVW grant program was to provide legal services to victims
of domestic violence, sexual assault, and/or stalking. The objective of the
CLASI grant was to provide legal representation to victims in family court
matters, including divorce and divorce-related matters, and other matters
related to domestic violence.

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant.1 We also evaluated CLASI’s program performance in
meeting grant objectives and overall accomplishments.

      We determined that CLASI was in material non-compliance with the
grant requirements we tested. Specifically, we reviewed CLASI’s compliance
with eight essential grant conditions and found material weaknesses with its
internal control environment, grant expenditures, monitoring of contractors,
and budget management and control. Because of the deficiencies identified,
we are questioning $829,340 of grant funded expenditures, or 93 percent of
the grant award, as unsupported and unallowable expenditures.

     In addition to the questioned costs, we also identified several areas
where management improvements were warranted and these included
implementing changes to the existing accounting system, strengthening the
overhead application methodology, instituting a documented and formalized
drawdown process, enhancing financial reporting, and adhering to prudent
budget management and control practices.


      1
           While we audited the grant and two supplemental awards provided by OVW, we will
refer to the grant and its supplements as a grant throughout this report.


                                            i
     These items are discussed in detail in the Findings and
Recommendations section of this report. Our audit objectives, scope, and
methodology appear in Appendix I.

      We discussed the results of our audit with CLASI officials and have
included their comments in the report, as applicable. Additionally, we
requested a response to our draft report from CLASI and OVW, and their
responses are appended to this report as Appendix IV and V, respectively.
Our analysis of both responses, as well as a summary of the actions
necessary to close the recommendations can be found in Appendix VI of this
report.




                                    ii
                                   TABLE OF CONTENTS




INTRODUCTION .......................................................................1 

Office on Violence Against Women .................................................1           

Legal Assistance for Victims Grant Program ....................................2              

Community Legal Aid Society, Inc. ................................................3           

Our Audit Approach .....................................................................3     

FINDINGS AND RECOMMENDATIONS........................................5 

Internal Control Environment .......................................................5 

Singe Audit ...............................................................................6 

Expenditures .............................................................................6 

Monitoring of Contractors .............................................................9 

Drawdowns ................................................................................9 

Reporting ................................................................................ 10 

Budget Management and Control................................................. 11 

Program Performance ................................................................ 13 

Compliance with Other Grant Requirements .................................. 15 

Other Reportable Matters ........................................................... 15 

Conclusions .............................................................................. 15 

Recommendations..................................................................... 16 

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY........ 18 

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS .... 20 

APPENDIX III - 2007 SINGLE AUDIT FINDINGS ..................... 21 

APPENDIX IV – COMMUNITY LEGAL AID SOCIETY, INC. 

    RESPONSE TO THE DRAFT AUDIT REPORT ...................... 25 

APPENDIX V – OFFICE ON VIOLENCE AGAINST WOMEN

    RESPONSE TO THE DRAFT AUDIT REPORT ...................... 31 

APPENDIX VI – OIG, AUDIT DIVISION, ANALYSIS AND
    SUMMARY OF ACTIONS NECESSARY TO CLOSE
    THE REPORT................................................................... 34

                                      INTRODUCTION

      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of the Office on Violence Against Women
(OVW) Legal Assistance for Victims Grant Program grant awarded to the
Community Legal Aid Society, Inc. (CLASI). In addition, we audited two
supplements to the grant awarded by OVW. The purpose of the grant was
to provide legal services to victims of domestic violence, sexual assault,
and/or stalking.2 The objective of the grant was to provide legal
representation to victims in family court matters, including divorce and
divorce-related matters, and other matters related to domestic violence.

      The purpose of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grant. We also evaluated CLASI’s overall program
performance and accomplishments in meeting grant objectives for the
funded programs. Our audit covered the start of the initial grant award
period in July 2005 to the closure of the final grant in September 2009. As
shown in the table below, CLASI was awarded a total of $891,422 to
implement the grant award. CLASI received a third supplement on
September 25, 2009; however, this supplement was not in the scope of our
audit because CLASI had not drawn down any of the supplement’s funds at
the time of our audit.

          Office on Violence Against Women Grant to
               Community Legal Aid Society, Inc.
   Grant Award         Award        Award
                                              Award Amount
     Number          Start Date   End Date
 2005-WL-AX-0056       7/1/05      6/30/07          $216,422
 Supplement 1                     7/1/05          6/30/08                 $225,000
 Supplement 2                     7/1/05          9/30/09                 $450,000
             Total                                                       $891,422
         Source: OVW grant files.

Office on Violence Against Women

      The Office on Violence Against Women (OVW), within the Department
of Justice, provides primary management and oversight of the grant we

         2
              Throughout this report we will refer to the grant and its two supplements as the
grant.


                                              - 1 -

audited. OVW’s stated mission is to provide national leadership in
developing the nation’s capacity to reduce violence against women through
the implementation of the Violence Against Women Act. OVW administers
financial and technical assistance to communities across the country that are
developing programs, policies, and practices aimed at ending domestic
violence, dating violence, sexual assault, and stalking. Currently, OVW
administers 2 formula grant programs and 17 discretionary grant programs,
all of which were established under the Violence Against Women Act and
subsequent legislation. By forging state, local, and tribal partnerships
among police, prosecutors, victim advocates, health care providers, faith
leaders, and others, OVW grant programs intend to help provide victims with
the protection and services they need to pursue safe and healthy lives, while
simultaneously enabling communities to hold offenders accountable for their
violence.

Legal Assistance for Victims Grant Program

       The Legal Assistance for Victims Grant Program was designed to
strengthen civil and criminal legal assistance for victims of sexual assault,
stalking, domestic violence, and dating violence through innovative,
collaborative programs. These programs are to provide victims with
representation and legal advocacy in family, immigration, administrative
agency or housing matters, protection or stay-away order proceedings, and
other similar matters. The Legal Assistance Program was intended to
increase the availability of civil and criminal legal assistance in order to
provide effective aid to victims who are seeking relief in legal matters arising
as a consequence of abuse or violence.

      The Legal Assistance Program provides an opportunity for communities
to examine how the legal needs of victims of domestic violence, dating
violence, sexual assault, and stalking are met. By statute, funds may be
used:

   	   To implement, expand, and establish cooperative efforts and projects
        between domestic violence and sexual assault victim services
        organizations with legal assistance providers to provide legal
        assistance for victims of sexual assault, stalking, domestic violence,
        and dating violence.

   	   To implement, expand, and establish efforts and projects to provide
        legal assistance for victims of domestic violence, dating violence,
        stalking, and sexual assault by organizations with a demonstrated
        history of providing direct legal or advocacy services on behalf of these
        victims.

                                       - 2 -

   	    To provide training, technical assistance, and data collection to
         improve the capacity of grantees and other entities to offer legal
         assistance to victims of domestic violence, dating violence, stalking,
         and sexual assault.

Community Legal Aid Society, Inc.

       Community Legal Aid Society, Inc. (CLASI) is a private, non-profit law
firm with a mission of providing equal justice for all. Additionally, CLASI
works to provide civil legal services to assist clients in becoming self-
sufficient and in meeting basic needs with dignity. CLASI’s clients include
members of the Delaware community who have low incomes, disabilities, or
are age 60 and over.

      CLASI provides free (non-criminal) legal services to eligible
Delawareans. CLASI maintains offices in New Castle, Kent, and Sussex
counties in the state of Delaware. The organization seeks to provide equal
access to justice for Delawareans regardless of their ability to pay or despite
the physical or age-related difficulties they may face.

Our Audit Approach

       We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, we
applied the Office of Justice Programs (OJP) Financial Guide as our primary
criteria during our audit. The OJP Financial Guide serves as a reference
manual assisting award recipients in their fiduciary responsibility to
safeguard grant funds and ensure that funds are used appropriately and
within the terms and conditions of the award. We tested CLASI’s:

        	 Internal control environment to determine whether the financial
           accounting system and related internal controls were adequate to
           safeguard grant funds and ensure compliance with the terms and
           conditions of the grant.

        	 Expenditures to determine whether the costs charged to the grant
           were allowable and supported.

        	 Monitoring of contractors to determine whether CLASI had taken
           appropriate steps to ensure that contractors complied with grant
           requirements.

        	 Drawdowns (requests for grant funding) to determine whether
           requests for reimbursement, or advances, were adequately

                                        - 3 -

       supported, and if CLASI managed grant receipts in accordance with
       federal requirements.

    	 Reporting to determine whether the required Financial Status
       Reports and progress reports were filed on time and accurately
       reflected grant activity.

    	 Budget management and control to determine whether CLASI
       adhered to the OVW-approved budget for the expenditure of grant
       funds.

    	 Program performance and accomplishments to determine
       whether CLASI achieved grant objectives, and to assess performance
       and grant accomplishments.

    	 Compliance with other grant requirements to determine
       whether CLASI complied with the terms and conditions specified in
       the individual grant award documents.

     When applicable, we also test for compliance in the areas of matching
funds, accountable property, indirect costs, program income, and monitoring
subgrantees. For this grant, we determined that CLASI charged no indirect
costs, did not obtain accountable property, matching funds were not
required, the grant-funded program generated no program income, and
there were no subgrantees.




                                   - 4 -

                      FINDINGS AND RECOMMENDATIONS

          COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

      From our audit, we determined that CLASI was in material
      non-compliance with essential grant requirements. Specifically,
      we found: (1) an inadequate system of internal controls;
      (2) expenditures made with grant funds that were unsupported
      because of inadequate documentation and unallowable because
      they were not determined to be in the approved budget; (3) a
      lack of contractor monitoring; (4) weaknesses in grant reporting,
      including late financial status reports; and (5) weaknesses in
      budget management and control. As a result of these
      deficiencies, we questioned $829,340 in unsupported and
      unallowable expenditures. These conditions, including the
      underlying causes and potential effects on the OVW program,
      are further discussed in the body of the report.

Internal Control Environment

       We began this audit by reviewing CLASI’s accounting and financial
management system, relevant grant related policies and procedures, and
Single Audit Reports to assess CLASI’s risk of non-compliance with laws,
regulations, guidelines, and the terms and conditions of the grant. We also
interviewed management staff from the organization, observed accounting
activities, and attempted to perform transaction testing to further assess
risk. As discussed below, we noted that there were several significant
findings contained within the most recent Single Audit report that were
specific to the administration and accounting for our grant award, and that
the Fiscal Year (FY) 2008 Single Audit report was not yet issued at the close
of our fieldwork in February 2010.3

      Additionally, we found that CLASI’s accounting and financial
management policies and procedures used to document and account for the
expenditure of grant funds were not being adequately implemented,
contractors were not being afforded sufficient monitoring and oversight, and
grant funding requests in the form of drawdowns were not adequately
supported. According to the OJP Financial Guide, the recipient of a grant
award is responsible for establishing and maintaining an adequate system of
accounting and internal controls. We determined that CLASI’s existing
system of internal controls was inadequate to safeguard, document, and
properly account for grant funds. The absence of an adequate and

      3
          The FY 2008 Single Audit report was issued in March 2010.

                                           - 5 -

effectively functioning internal control environment places grant funds at risk
and undermines the ability of the grant recipient to ensure that federal funds
are being adequately safeguarded and spent accurately and properly in
accordance with the grant objectives.

Single Audit

      According to the Office of Management and Budget (OMB) Circular
A-133, CLASI was required to engage independent auditors to perform an
annual Single Audit. The due date for the Single Audit report was no later
than 9 months after the end of CLASI’s fiscal year, and CLASI’s fiscal year
runs concurrent with the calendar year from January 1 through
December 31. We found that CLASI’s FY 2007 Single Audit report was
issued on May 19, 2009, over 8 months late, and the FY 2008 Single Audit
report was issued on March 5, 2010, about 5 months late.

       CLASI officials told us that the FY 2007 Single Audit was late because
CLASI was behind on transaction postings and account reconciliations. For
the 2007 Single Audit, CLASI also changed the independent auditing firm it
used to perform the Single Audit. Moreover, we were told the auditing firm
found issues which required further testing. For the 2008 Single Audit,
CLASI officials said the auditing firm told them the Single Audit would be
completed by November 2009. However, according to CLASI officials, the
firm performing the audit had issues in scheduling its work causing the audit
to be delayed until March 2010. More importantly, from our review of the
2007 and 2008 Single Audit reports, there were several findings that had
potential ramifications to Department of Justice (DOJ) grants. CLASI
officials told us they were working to adequately address and resolve all of
the Single Audit findings. See Appendix III for the FY 2007 Single Audit
report findings.

Expenditures

      As of September 11, 2009, CLASI had incurred expenditures and made
funding requests (drawdowns) for $829,340, or 93 percent of the $891,422
original grant award and its two accompanying supplements. CLASI used
these funds primarily to make payments to outside contractors, reimburse
for personnel costs and associated fringe benefit charges, fund travel
expenses, and cover miscellaneous supplies. In response to our request for
the accounting records in support of these expenditures, we were provided
with multiple sets of accounting records that we ultimately determined could
not be used to readily support what CLASI had actually spent specific to the
grant award. The accounting records we received contained transactions
that were comingled with expenditures from other DOJ grant awards,

                                     - 6 -

duplicate accounting entries, and expenditures charged to the grant award in
error. After affording CLASI an opportunity to correct the errors in the
records and provide us with correct and reliable accounting data that we
could use in performing transaction testing, CLASI was unable to do so. As
a result, we were unable to perform any transaction testing of the
accounting records and we questioned the entire funding amount of
$829,340 received by CLASI as unsupported because the accounting records
were unreliable and did not provide a means to readily identify what was
spent using DOJ grant funds.

      According to the OJP Financial Guide, a grantee is responsible for
establishing and maintaining an adequate financial system and accounting
records to accurately account for funds awarded. Due to the lack of reliable
accounting records, we could not determine what was spent in each budget
category. As a result, we could not complete transaction testing. In our
view, when an organization cannot provide their accounting methodology
and their accounting system cannot completely and accurately report the
data for the grant, it is difficult to determine if the stated objectives of the
grant were being met. In addition, there is a potential for fraud, waste, and
abuse of the grant award funds.

Supplies and Overhead

       CLASI charged the grant for miscellaneous supplies and overhead
charges. Miscellaneous supplies and overhead charges consisted of postage,
water charges, computer equipment under $1,000, and other various
expenses. As previously stated under the expenditures section, we could
not readily determine what was spent on supplies and overhead because the
accounting records that CLASI provided proved to be unreliable.
Additionally, we found that CLASI had a very complex methodology for
charging supplies and overhead charges to the grant. Specifically, a CLASI
official told us it used an allocation methodology for these supplies and
overhead charges that resulted in allocations to numerous grants and
funding sources.

      We were unable to verify many of the amounts charged to the DOJ
grant for supplies and overhead, and in asking CLASI for assistance in
demonstrating how these costs were ultimately allocated and actually
charged, CLASI staff could not recreate how the charges were made and
lacked any documentation to support the actual amount allocated to the DOJ
grant. We also found that CLASI did not have key internal controls in place
to ensure that charges against the grant for these categories were not over
the actual amount of expenditures incurred for that month.


                                      - 7 -

Personnel and Fringe Benefits

       The OJP Financial Guide requires that time and attendance records
support payroll records and associated fringe benefit charges. Additionally,
this requirement includes that such records show evidence of supervisory
review. CLASI contracted with a third-party payroll processor to process its
payroll using an internet based application. The same payroll processor
provided services for the period covered by our audit. CLASI’s office
manager was responsible for compiling time and attendance reports and
allocating the time charged to the grant, while CLASI’s accountant entered
the payroll data into the payroll processor’s system. Additionally, CLASI
officials told us that supervisors approved time and attendance sheets and
verified an employee’s actual work performed through their case
management system.

      We found that CLASI paid salaries and fringe benefits for attorneys
and paralegals with grant funds and that these employees’ submitted their
time and attendance sheets with billable hours to CLASI’s accountant. The
accountant then entered these billable hours into a spreadsheet on a
monthly basis. CLASI then charged the grant based on an undocumented
percentage of the total billable hours worked for a given month.

       We selected two nonconsecutive pay periods for detailed testing to
determine if salaries and fringe benefit charges were supported and
allowable. For the first pay period we selected, CLASI could not provide the
specific calculations for the time allocations charged to the grant. As a
result, we selected another pay period for review. For the two
nonconsecutive pay periods we ultimately used for testing purposes, we
could not verify employee salaries or whether the time associated with those
salaries was accurately recorded and charged to the grant. Additionally, for
the two pay periods we selected for testing and throughout the life of the
grant, we determined that CLASI charged personnel salaries and their
associated fringe benefits to the grant that were not specifically approved by
OVW and were outside the scope of the grant’s budget.

       Finally, we found that time and attendance reports were not approved
in writing by supervisors. As a result of the deficiencies we identified in the
manner by which CLASI documented and allocated personnel salaries to the
grant, coupled with internal control shortcomings that did not ensure a
process was in place that would provide evidence of supervisory
management review and the approval of personnel time charges, we
determined that all personnel salaries charged to the grant were not
adequately supported nor properly authorized. Because the calculation of
fringe benefit charges were based directly on personnel expenditures as

                                     - 8 -

either a percentage or fixed amount for each employee based on time spent
working on the grant, together with the fact that time and attendance
reports were not properly authorized, we determined fringe benefits were
not adequately supported nor properly authorized. As a result, we question
as unsupported and unallowable all of the expenditures related to the
salaries and fringe benefits charged to the grant. In our judgment, when
expenditures are unsupported and not properly authorized, it greatly
increases the risk of inappropriate and erroneous grant charges and also
potentially undermines the ability of the grantee to satisfactorily accomplish
its stated objectives.

Monitoring of Contractors

      According to the OJP Financial Guide, as the direct grant recipient,
CLASI was responsible for all aspects of the program including proper
accounting and financial recordkeeping of all grant funded expenditures
made by contractors. Moreover, CLASI was required to ensure that
contractors had a system of internal controls in place to safeguard and
account for grant funds. Finally, CLASI was required to provide adequate
monitoring to ensure that contractors used the grant funds for their intended
grant authorized purpose.

       During our audit, we found that CLASI made extensive use of
contractors throughout the life of the grant. CLASI classified the contractors
in their accounting system as legal service providers and domestic violence
service providers. According to CLASI officials, contractor monitoring was
not performed because CLASI did not have enough employees to do so. In
addition, CLASI did not monitor the contractors’ fiscal process and
procedures to determine if they provided adequate safeguards for grant
funds. In instances where contractors are not adequately monitored, it is
difficult to determine if the stated objectives of the grant are being met.
Additionally, because CLASI could not provide accurate and fully-supported
grant-funded charges, we questioned all of the costs associated with the use
of contractors for the grant.

Drawdowns

      CLASI requested grant funds through 22 separate drawdowns, or
funding requests, totaling $829,340. To determine if drawdowns were
completed in advance or on a reimbursement basis, after grant expenditures
were incurred, we analyzed the bank statements and supporting
documentation for the actual expenditures. To determine if funds were
requested based on actual expenditures, we calculated the time difference


                                     - 9 -

between when the grant funds were requested and when the actual reported
expenditures were incurred.

      CLASI was unable to provide a listing of the supporting documentation
for the drawdowns made for the grant. However, after a discussion with
CLASI officials, we determined that the undocumented methodology used in
making the drawdown requests did ensure that the amount requested for
any given period was less than the amount actually used to fund
expenditures incurred for grant related purposes. After our fieldwork had
ended, CLASI officials told us that they were maintaining supporting
documentation and that the drawdowns are now accurate and matched the
accounting records.

       Additionally, from our review we determined that grant funds were
generally requested on a reimbursement basis with two exceptions. For the
two incidences where funding was requested in advance, the accounting
records showed that grant-related disbursements were made within 12 days
from the date of the funding request. Because CLASI could not provide a
listing of specific transactions that made up the drawdown requests, we
could not readily determine if funds were requested based on the actual
expenditures incurred.

       Overall, from our limited review, we determined that the drawdown
procedures used by CLASI were only marginally adequate because the risk
of grant funds being erroneously requested in the absence of grant-related
expenditures remains high. This risk is further increased because of a lack
of documented procedures and a formalized process that also includes some
level of periodic supervisory monitoring and oversight. By strengthening
internal controls with the overall drawdown process, CLASI could better
ensure that grant funds are not placed at undue risk for fraud, waste, and
abuse

Reporting

Financial Status Reports

      The financial aspects of OJP grants are monitored through Financial
Status Reports (FSRs). According to the OJP Financial Guide, FSRs should
be submitted within 45 days of the end of the most recent quarterly
reporting period. Even for periods when there have been no program
outlays, a report to that effect must be submitted. Funds or future awards
may be withheld if reports are not submitted or are excessively late.



                                   - 10 -
       Between July 2005 and September 2009, CLASI was required and
submitted a total of 17 FSRs for the grant. We reviewed the submitted FSRs
for both accuracy and timeliness. While reviewing the FSRs for accuracy, we
determined that CLASI’s accounting records did not match FSR amounts
reported to OJP. CLASI officials said the reason for this was because
transactions were added to the accounting records that were never reported
on the FSRs. This occurred because of timing differences that arise from the
time the report used for the FSRs was generated and the time that charges,
such as overhead costs, were posted to the accounting records. Ultimately,
we were unable to reconcile the FSRs with the accounting records.
Additionally, we found that 12 of the 17 FSRs were submitted late, from 2 to
109 days late. CLASI officials told us the late submissions occurred before
the current Chief Financial Officer was hired to fill the vacant position. In
this instance we concluded that without accurate and timely FSRs, OVW’s
ability to evaluate the financial aspects of the ongoing grant program were
compromised.

Progress Reports

      Progress reports are submitted in order to present information on the
performance of a grant and are due to be submitted semiannually. Between
January 2006 and July 2009, CLASI submitted eight required progress
reports to OVW on time. In their progress reports, CLASI reported the
number of victims served, partially severed, and not served; victim
demographics; victim’s relationship to the offender; legal issues; legal
outcomes; the status of grant-program goals and objectives; outcomes
achieved; areas of remaining need; and what the grant funding has allowed
CLASI to do.

      We attempted to compare source information provided by CLASI to the
progress reports to verify accuracy. However, we were unable to verify the
accuracy of this information because CLASI could not provide an accurate
account of how the numbers in the progress reports it submitted were
determined. Alternatively, we were able to review CLASI case file
information and confirmed that CLASI was able to demonstrate that it was
working to meet its grant funded goals despite the lack of supporting
documentation directly tied to the numbers reported in its progress report
submissions.

Budget Management and Control

      The OJP Financial Guide requires that grant recipients spend grant
funding according to defined budget categories, or request approval for


                                   - 11 -
reprogramming funds if actual spending exceeds certain limits.4 The
following table presents the OVW approved budgets for the grant and its two
supplements.

      Budgets of OVW Grant 2005-WL-AX-0056 Awarded to CLASI
                      2005-WL-            First     Second
   Category           AX-0056          Supplement Supplement                Total Grant

Personnel                  $ 79,103         $ 85,350       $ 173,382              $ 337,835
Fringe Benefits            $ 34,673         $ 40,228         $ 70,589             $ 145,590
Travel                      $ 9,146          $ 6,338         $ 11,659              $ 27,143
Equipment                        $0                 $0             $0                     $0
Supplies                    $ 3,875          $ 3,217          $ 6,932              $ 14,024
Contractual                $ 79,885         $ 84,323       $ 175,210              $ 339,418
Other                       $ 9,740          $ 5,544         $ 12,228              $ 27,512
Total                $ 216,422    $ 225,000                $ 450,000              $ 891,422
Source: OJP Grant Award documents

      We attempted to compare budgeted amounts from the approved
financial clearance memorandums to actual expenditures from the grant
transactions. CLASI officials stated that they did not track expenditures for
the grant by OVW approved budget categories, nor did they monitor the
budget versus actual expenditures to ensure they did not transfer more than
ten percent of the total award between budget categories and ensure that
grant spending was within the scope of the approved budget. CLASI officials
said the reason the grant budget was not tracked or monitored was because
they did not know they had to track expenditures by budget categories. As
a result we question $829,340 in expenditures that we could not determine
whether they were part of the approved budget.

      Because CLASI did not track expenditures by approved budget
categories, or monitor the budget versus actual expenditures, we could not
determine if CLASI spent grant funds according to the defined budget
categories. As we discussed earlier in this report, CLASI’s inability to
provide accurate and reliable accounting records to support its expenditures
further lessens the utility of any meaningful budget versus actual
comparison as a useful management tool.


         4
          Movement of budget dollars between approved budget categories without a Grant
Adjustment Notice is allowable up to ten percent of the total award amount (ten percent rule),
provided there is no change in project scope.

                                           - 12 -
     When grantees do not track expenditures by approved budget
categories or monitor the budget verses actuals, effective grant
management is potentially undermined and the ability to adequately
safeguard grant funds is compromised.

Program Performance

      The objective of the OVW grant was to provide a comprehensive
delivery system for civil legal services for victims of domestic violence and
sexual assault in Kent and Sussex County, Delaware, free of charge.

The grant’s goals included:

   	 Female victims of domestic violence and sexual assault in Kent and
      Sussex Counties will continue to have access to an attorney to advise
      and represent them in their legal efforts to secure safety for
      themselves and their children.

   	 Female victims of domestic violence will have access to an attorney to
      advise and represent them in non-Family Court civil legal matters
      related to the domestic violence.

   	 Female immigrant victims of domestic violence and sexual assault will
      have access to legal information and an attorney to advise and
      represent them in immigration matters.

   	 Female victims of domestic violence and sexual assault will have the
      benefit of a case manager to assist them during the course of their
      legal representation and to advise and counsel them concerning
      services available for victims.

   	 Victims of domestic violence and sexual assault seeking relief in the
      Family Court will have a court-based advocate to provide moral
      support, guidance, crisis intervention, and referral services.

   	 Attorneys and paralegals from the participating legal services
      providers will better understand victims of domestic violence and their
      needs by being educated concerning the nature of domestic violence,
      its impact on the victims, and their roles as advocates for the victim.

   	 Case managers and staff of the domestic violence services providers
      will be educated concerning the legal rights of victims of domestic
      violence.


                                     - 13 -
   	 Attorneys, paralegals, case managers, and staff of the agencies
      providing the services under this Project will become aware of special
      needs of Hispanic victims as a result of cultural awareness training.

   	 The agencies collaborating in this Project will coordinate their services
      to the benefit of victims of domestic violence and provide a network of
      services to enable victims to secure a safe environment in which to
      live.

   	 The agencies collaborating in this Project will coordinate their services
      to the benefit of victims of domestic violence and provide a network of
      services to enable victims to secure a safe environment in which to
      live.

Measuring Performance

       According to grant documents, CLASI was to measure the
effectiveness of meeting these goals by tracking the number of victims
served, the number of hours of legal services provided, the outcomes of
cases, and the ability of the Project to reach out to the Hispanic community
and Spanish speaking victims. The project was also to track the number of
persons seeking services that could not be served, and the reasons for non-
service as well as victim information. CLASI utilized a computerized case
management system to track the demographics of the clients served as well
as the outcomes of the individual cases.

        In addition to tracking outcomes with the case management system,
all clients received a Client Satisfaction Form when their case was closed to
provide additional information.

      CLASI provided the statistical data used to determine the numbers
reported on the progress reports. We were unable to verify the accuracy of
this data because CLASI did not provide a methodology detailing how they
came up with the numbers reported on progress reports. However, even
though we were unable to verify this data, based on the information we
reviewed, program outcomes were documented for the legal services that
CLASI provided. As a result, we determined there was sufficient evidence to
demonstrate that CLASI was achieving the goals and objectives set forth in
the program narratives.




                                    - 14 -
Program Sustainability

      According to the grant narrative, "The services provided by this Project
are part of a comprehensive civil legal services delivery system which is of
extreme importance to victims of domestic violence. As they have in
the past, CLASI, [and the legal service providers] will make every effort to
continue the Project should grant funds no longer be available." During our
audit, CLASI received a third supplement from OVW in September 2009 and
as a result, we could not readily determine the sustainability aspects of the
program. However, from our collective audit work, we believe that the
absence of OVW grant funding could potentially disrupt and impair the ability
of CLASI to furnish ongoing legal services at the same level currently
provided.

Compliance with Other Grant Requirements

      In addition to the general grant requirements, we tested for
compliance with terms and conditions specified in the grant award
documents. The original grant award and its two supplements all contained
27 special conditions. We found that CLASI complied with all of the special
conditions.

Other Reportable Matters

Communication with OVW

      We asked CLASI officials about whether any incidents of fraud or any
other illegal acts or irregularities occurred during the period of the OVW
grant we reviewed. We were told about a misappropriation of funds not
specific to the OVW grant that involved unauthorized payroll disbursements
made by a CLASI employee. CLASI officials identified the fraud and took
appropriate actions to address the issue. We discussed this issue with OVW
and determined that it was not aware of this misappropriation, nor was
CLASI designated as a high-risk grantee as a result of such an issue.
According to an OVW official, “OVW is in the process of inquiring as to why
CLASI did not make the high-risk list which would have been a factor
considered in determining their grant award. At the very least, their award
would have contained the high-risk conditions.”

Conclusions

      CLASI did not fully comply with the key grant requirements we tested.
We found material weaknesses in CLASI’s expenditures and monitoring of
contractors resulting in $829,340 in questioned costs that could not be

                                    - 15 -
adequately supported. In addition, we found that for these same
expenditures, CLASI charged $829,340 that we consider unallowable
questioned costs because it could not be determined whether they were part
of the approved award budget.

      We also identified several areas where management improvements
were warranted, including: implementing changes to the existing accounting
system, strengthening the overhead application methodology, improving
contractor monitoring, instituting a documented and formalized drawdown
process, enhancing financial reporting, and adhering to prudent budget
management and control practices. We also determined that while CLASI
had evidence of its accomplishments in meeting program goals and
objectives, it could enhance program performance by ensuring that the
performance data used for progress reporting purposes was subjected to a
defined, consistent, and verifiable methodology.

Recommendations

     We recommend that OVW:

    1. Remedy $829,340 in unsupported and unallowable expenditures and
       ensure that CLASI implements an accounting system that can
       completely and accurately gather, record, and report the data for
       the OVW grant.

    2. Ensure that CLASI develops and implements a reliable, consistent,
       verifiable, and documented methodology to calculate overhead
       expenditures that are charged to the OVW grant.

    3. Remedy all unsupported and unallowable personnel and fringe
       benefit expenditures.

    4. Ensure that CLASI implements and adheres to procedures to
       adequately monitor contractors.

    5. Ensure that CLASI implements a formalized and written process to
       ensure that an adequate system is in place to keep track of
       drawdowns.

    6. Ensure that CLASI implements and adheres to procedures that will
       result in the timely and accurate submission of Financial Status
       Reports.



                                  - 16 -
7. Ensure that CLASI implements and adheres to procedures to track
   expenditures by budget categories and to monitor budget versus
   actual spending on a consistent and ongoing basis.




                             - 17 -
                                                                APPENDIX I 



               OBJECTIVES, SCOPE, AND METHODOLOGY

       The purpose of our audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms
and conditions of the grants. We also assessed grantee program
performance in meeting grant objectives and overall accomplishments.
The objective of our audit was to review activities in the following areas:
(1) internal control environment, (2) drawdowns (3) grant expenditures,
including personnel and indirect costs, (4) budget management and
control, (5) matching, (6) property management, (7) program income,
(8) financial status and progress reports, (9) grant requirements,
(10) program performance and accomplishments, and (11) monitoring of
subgrantees and contractors. We determined that program income,
accountable property, matching costs, and the monitoring of subgrantees
were not applicable to this grant.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit
objectives.

       In conducting our audit, we performed sample testing in the areas of
grant expenditures and compliance with grant requirements. In this effort,
we employed a judgmental sampling design to obtain broad exposure to
numerous facets of the grants reviewed, such as high dollar amounts or
expenditure category based on the approved grant budget. We identified
samples of 50 grant expenditures. This non-statistical sample design does
not allow for the projection of the test results to the universes from which
the samples were selected.

      We audited the Office on Violence Against Women Grant Number
2005-WL-AX-0056. The grantee had made and received a total of
$829,340 in requests for grant funding through September 2009. Our
audit concentrated on, but was not limited to, the award of the original
grant in July 2005 through September 2009.

     We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our report, the



                                    - 18 -
criteria we audited against are contained in the Office of Justice Programs
Financial Guide and grant award documents.

      In addition, we reviewed the timeliness and accuracy of Financial
Status Reports and Progress Reports, evaluated actual program performance
to grant objectives, and considered internal control issues. However, we did
not test the reliability of the financial management system as a whole.




                                    - 19 -
                                                                        APPENDIX II 



                SCHEDULE OF DOLLAR-RELATED FINDINGS



 QUESTIONED COSTS:                                             AMOUNT               PAGE

Unsupported Expenditures                                            $829,340              7

Unallowable Expenditures                                            $829,340          12

TOTAL OF QUESTIONED COSTS:                                      $1,658,680

  LESS DUPLICATION                                               ($829,340)

TOTAL DOLLAR-RELATED FINDINGS:                                    $829,340

Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.




                                         - 20 -
                                                               APPENDIX III 



                2007 SINGLE AUDIT REPORT FINDINGS

     The following Findings were reported in the FY 2007 Single Audit
Report and have potential ramifications to DOJ grants.

  	 Finding 07-3 Payroll Reconciliations – “…the payroll clerk was both
     recording and preparing the monthly reconciliations. [Because of
     turnover] during the year, and in response, the payroll clerk assumed
     greater responsibility. However, if payroll reconciliations are
     performed by individuals who have the ability to post payroll
     disbursement activities to the general ledger, the effectiveness of the
     control may be compromised.”

  	 Finding 07-4 Management Approval of payroll – “…the
     organization did not have a member of management approve the
     information that was submitted to the payroll company by the payroll
     clerk. Not having an approval of this information increases the risk of
     fraudulent activity within the payroll department. This condition was
     directly related to lack of risk assessment policies and internal control
     deficiencies within the organization. The ultimate effect of this
     deficiency was fraudulent activity within the payroll department.”

  	 Finding 07-5 Misappropriation of Funds – “…the payroll clerk
     overpaid herself a gross amount of $6,860.79. These overpayments
     were noted in four pay periods, May, July, September and December.
     In the employee termination-of-employment letter dated April 11,
     2008, the organization identified all of the amounts misappropriated,
     the reasons for misappropriations and the dates of fraudulent activity.
     [The auditors] reviewed the documentation relating to the pending
     litigation and noted that the amounts agree to this termination letter.
     Per discussions with management and review of internal controls, the
     auditors noted that the reason this was possible was due to a lack of
     internal control within the business department. During the periods
     when the business department had appropriate personnel to adhere to
     internal control policies, the employee was unable to misappropriate
     funds. During the course of the audit, the former employee was found
     guilty of five of seven counts for misappropriation of funds.”

  	 Finding 07-6 Stale Checks – “…there were several stale checks
     being reported on the bank reconciliations. Stale checks are payments
     that have been outstanding for greater than 60 days. This situation
     occurred because there has been no policy in place during previous
     years to write off amounts. These outstanding checks complicate the


                                    - 21 -
     reconciliation process, potentially understate cash and, if not cashable,
     potentially could lead to late fines if not followed up.”

  	 Finding 07-8 Fraud Risk Assessment – “…the organization does
     not have a fraud risk assessment program. Establishing a fraud risk
     program will provide greater assurance that fraud is not occurring...
     For small companies, one of the primary fraud risks is the ever-
     present risk of misappropriation of assets (theft), particularly
     fraudulent cash disbursements. The opportunity to commit and
     conceal fraud exists where there are assets susceptible to
     misappropriation and inadequate controls to prevent or detect the
     fraud.”

  	 Finding 07-13 Expenditure Internal Controls – “… [the auditors]
     tested expenditure internal controls and noted several exceptions. Of
     the 60 transactions selected, three did not have a purchase order; in
     four instances, the employee did not sign a check request; in 13
     instances, the invoice was not stamped approved; in one instance, the
     supporting documentation did not match the general ledger; and in
     four instances, no supporting documentation could be located.”

  	 Finding 07-16 Payroll Grant Allocations – “…the controls
     surrounding recording payroll were not operating effectively. [The
     auditors] attempted to match time cards filled out by employees by
     grant area to the journal entry recorded in the general ledger... In
     four instances, times recorded per grant were significantly different
     from the amount recorded by the employee. The reason for this was
     related to the availability of funding and client error. If these amounts
     are not properly recorded, they could potentially violate the allowable
     cost and eligibility requirements set forth in grant contracts.”

  	 Finding 07-17 Grant Report Timing – “…the organization has not
     been submitting the FSR 269 on a timely basis. “

  	 Finding 07-18 Grant Report Accuracy – “…the reports submitted to
     the granting agencies did not tie directly into the trial balance or
     supporting documentation provided by the organization... The reason
     for this deficiency was because accounts were not being reconciled.”

      Only findings 07-3, 07-4, 07-8, 07-13, 07-16, 07-17, and 07-18
concerning payroll reconciliations, management approval of payroll, fraud
risk assessment, expenditure internal controls, payroll grant allocations,
grant report timing, and grant report accuracy directly impacted this grant
and audit. The other findings had little impact; however, they are

                                   - 22 -
crosscutting to other federal agencies The following are summaries of the
preliminary responses by CLASI concerning these issues.

  	 Finding 07-3 Payroll Reconciliations – “The payroll account will be
     reconciled by someone other than the individual payroll processes,
     with the reconciliation reviewed and approved by the Chief Financial
     Officer or Executive Director effective May 1, 2009.” During fieldwork,
     we reviewed payroll reconciliations and saw that they are being
     reviewed and signed off by two different people.

  	 Finding 07-4 Management Approval of payroll – “Prior to
     submission, payroll will be reviewed by the C.F.O and/or the Executive
     Director, who will also review the payroll report delivered by the
     payroll company effective May 1, 2009.” During fieldwork, we
     reviewed payroll information. The Chief Financial Officer now reviews
     payroll information before it is sent to the payroll company. Then the
     Executive Director reviews it when it comes back from the payroll
     company.

  	 Finding 07-8 Fraud Risk Assessment – “The organization will work
     with the Finance and Audit Committees to conduct a fraud risk
     assessment with a targeted completion date of September 1, 2009.”
     CLASI has not completed the fraud risk assessment due to turnover in
     their Finance and Audit Committees and they could not give us a
     target date of when this would be complete.

  	 Finding 07-13 Expenditure Internal Controls – “Management will
     adhere to the Organization’s internal control policies. New personnel
     are staffed in the Business Office, providing for stability and competent
     processing of invoices.” CLASI has not updated their internal control
     policies since May 2006 and they did not have a plan to do so at the
     time of fieldwork.

  	 Finding 07-16 Payroll Grant Allocations – “The employee who was
     performing this process was terminated on April 6, 2008. New
     Business Office personnel are following the procedure to correctly
     allocate time reported on timesheets to the grants.”

  	 Finding 07-17 Grant Report Timing – “Effective June 1, 2009, the
     Business Office will ensure all FSR 269s are filed on a timely basis.”

  	 Finding 07-18 Grant Report Accuracy – “Accounts are being
     reconciled on a monthly basis. Reporting is current effective April 1,


                                   - 23 -
2009.” Due to time constraints, we were unable to verify if this is
being done.




                              - 24 -
                                                                                                    APPENDIX IV 



          COMMUNITY LEGAL AID SOCIETY, INC. 

         RESPONSE TO THE DRAFT AUDIT REPORT 




                       COMMUNITY LEGAL AID SOCIETY, INC.
                                      100 W. 10th Street, Suite 801
                                      Wilm ington, Delaware 19801
                       (302) 575·0660                            Fax (302) 575-0840
                                             www.declasi.org

                                                 July 9, 2010

Thomas O. Puerzcr
Regional Audi t Manager
U.S. Department of Justice
Office of Inspector General
701 Market Street, Suile 201
Philadelphia, P A 19 106

Dear Mr. Puemr:

        Enc1o.'!Cd please find Community Legal Aid Society. Inc. '8 (CLASI) response to the audit
of the Office on Violence Against Women, Legal Assistance fo r Victims grant award nwuoor
2005-WL-AX-0056 and its supplements. CLASr is working closely with OVW to remedy the
findings in the audit report.

      If you have any question.~ regarding this response, please feel free to contact me at (302)
575-0660 exl 244.




                                                Interim • ccutive Director

Enclosure

cc: Shannon Gasldns
    Legal Assistance for Victims Program Specialist
    Office on Violence Against Women




                  NEW CASTLE CO.
                  KENT COUNIT
                                   Main O/f.:e, l00W. 10th Str<:d, Suit. 801, Wilmi~ 01:
                                   640 w. lker R""d. OoYer, Of
                                                                                           lJ02)S7S.(I6r.o
                                                                                           !]02)~14-a500
                                                                                                             to·
                  SUSSEX COUNTY    20151 OfficeCi<cle, GeorgetOWJl, u e                    (302) ~5f..OO38    -

                                                                                                             =



                                               - 25 -
                      COMMUNITY LEGAL AID SOCIETY, INC.
                                    100 W. 10th Street, Suite 801
                                   Wilmington, Delaware 19601
                      (302) 575-0660                         Fax (302) 575-0640
                                         www.declasi.org

  Cooununity Legal Aid Society,Inc. (CLASI) Responses to the Office of the Inspector
  General's (OIG) Audit Report of the Office of Violence Against Women(OVW), Legal
  Assistance for Victims Grant - 2005-WL-AX-0056.


  Internal Control Environment and Single Audit

          As is alluded to in the OIG Draft Audit report, both of these findings relate to the
  ftndings in Community Legal Aid Society Inc.'s A- 133 Audit reports for 2007 and 2008.
  As the draft audit report indicates the audits were completed late, with the 2008 audit
  completed in March 20 I O. The OIG drafl report includes the findings included in our
  2007 audit in Appendix 1Il. Those findings have been Iesolved. In the 2008 A-133 Audit
  report those findings are " no longer applicable",


  Expenditures

          With regard to the sub contractor expenditures, each of those expenditures is
  supported by a detailed invoice from the sub-grantee idcntifying the work performed for
  which they were reimbursed. With the remainder of the expenditures we are currently
  able to show that the fund.~ expended for the grant were justified. As we previously said,
  while some internal controls werc weak during the early part of the grant tho~e controls
  have been remedied, and we can show that the flUlds earned and drawn down from the
  grrull were justified, and we deny any potential for fraud waste or m i ~Ul;e for any of the
  grant fund~ ,


  Supplies and Overbead

         Once again the OIG reiterates the ioad&:juacy with the intc11laI control s. As we
  havc respondcd to thc previous DIG findings, the A-133 audit findings are "no longer
  applicable" effective with the 2008 internal audit. While those control deficiencies led to
  some difficulty in recreating some records in the early part of the grant, those deficiencies
  have been corrected, and we canjustify the lotal funds expended on the grant. OW'
  oVCJhead al location method b an approved allocation method by the Officc of
  Management and Budget and has been used througho ut the lattcr part of the gran!.




United t~         NEW CASTLE co.
                  ~ ~TCOUNTY
                                   Main Office. lOO W. 10th StteeI. Sui!. SOl.
                                   IWO walker  1I.03<I , ~, D£
                                                                                 W~rni"SI<ln.   DE   (302) 575-06!iO ~.
                                                                                                     (3(2) 6H-&.500
  Way~            SUSSEX cnuNTY    201 ~1 Office C"""', G"",p:t_n. DE                                (302)856-0038    ;.>

                                                                                                                      =




                                                - 26 -
COIllilllmity Legal Aid Society, Inc.
Page 2 ofS
Personnel and Fringe Benefits

       CLASI disagrees with the OIG assessment that the employee salaries and time
associated with those salaries were not adequately recorded and charged to the grant.
CLASI allocates salary and fringe benefits using the following method.

                   Salary & Fringe Benefits Allocation Methodology
Legal Staff - Including such positions as paralegal, attorney, supervising attorney,
managing attorney and project directors.

Legal staff salaries and fringe benefits are allocated to CLASI funding sources based on
the percentage of the total chargeable time that is worked for each funding source.

Legal staff submit Time Records each month reporting three types of time:

    1.   Chargeable Client Hours - Hours spent on activities related to a specific client
         including drafting letters, research, fact investigation, conference with client,
         court appearances, mediation, etc.

   2.    Chargeable Matter (Non-Case) Hours - Hours spent on activities other than
         those related to a specific client including community outreach activities,
         training, community education, reporting, research, etc.

   3.    Non-Chargeable Hours - Vacation, Holidays, Personal Leave, Sick Time, other
         administrative time.

The time (billable hours) billed for each funding source is based on the sum of the
Chargeable Client Hours and Chargeable Matter worked for each funding source. The
percentage of billable hours for each funding source to the total billable hours of all the
funding sources is calculated. This percentage is than applied to the Legal Staffperson's
monthly salary to determine the amount of salary to be allocated to each funding source.
The amount of the Legal Staff Person's monthly Fringe Benefits are allocated to each
funding source by the same percentage.

The amount of Salary and Fringes attributable to Leave Time and Other Administrative
time is allocated amongst the funding sources at the percentage of billed hours for each
funding source.

This allocation methodology is consistent with what is allowable under OMB Circular A-
122 - Selected Items of Cost. See example below:




                                          - 27 -
Community Legal A id Society, inc.
Page 3 of 5
 Example:

                                                     Attorney: Smith     Total Monthly
                                                                             S<.llary         $4,000.00
                                                                        Total Monthly
                                                                        Fringe Benefits       $1,200.00

                                                                        Total                    Total
                                                                        D istributed          Distributed
                                                                        G rant Salary        G rant Fringe
                                                                          $4,000.00           $1,200.00
         Chargeable    Chargeable        Total
           C lient                       ~            % Bill ed Granl
 Grant     Hours          Matter         Hours            li2!!!>
   A         40                5           45            34.35%                                 412.21
   8         47                4           51            38.93%                                 467.18
   C         21                            21            16 .03%                                192.37
   0         14                            14            10.69%            $427.48              128.24

                      Tota l 8111ed
                      Grant H ours        131                             $4 000.00           $1 200.00

                       Leave! Adm
                          Time             28

                       Total Time         159



Since 2008 Paralegals have bccn included in the submitted budgets. While: parale:gals
were not included in earlier budgets their contribution to the e(fectivent:ss of the grant
cannot he overstated. As the OIG acknowledges in its draft report, the grant goals were
accomplished. Our paralegals are an integral and necessary ingredient to achieving the
stated goals of the grant.

Mon itori ng of Con tee' ors

       CLASI has reviewed the sub-grantee monitoring procedures req uired by OJP and
put together a regimen to m onitor sub-grantees to meet the req uirements of tbe Financial
Guide of the Department of Justice Offiec of Justice Programs.

        S ince the inception of the program flUlded with Legal Assistance for Victims
funds, CLAS I has monitored program compl iance of its sub-grantees by meeting with a ll
sub-grantccs each quarter to review cascloads and coordination of ser vices. CLASI and
its sub-grantees share common clients and work together on a daily basis. CLAST
prepares detailed semi-annual reports to the OVW reporting the outcomes of each of t he
sub-grantees. To compile the reports CLASI communicates telephonica1ly and
electronically with the sub-grantees. C LAS I paid financial draws to sub-grantees upon
the submission of detailed invoices indicating the work performed under the program.




                                         - 28 -
Community Legal Aid Society. Inc.
Pagc40fS
Drawdowoll

        We agree with the assessment of the OTG that drawdown requests were made for
amounl<; that were leSS than the amount actually used to fund the expenditures incurred
for grant related purposes. CLAST ba!; in place procedures and documentation supporting
thc funds requested, and that those requests match our aeco unting records.

Reporting

      During the early part of the grant, some of the Financial Status Reports were late.
We have rectified that situation since our new CPO was hired in 2008.

Progress Reports

         CLASJ disagrees with the OIG assessment that we could not provide accurate
support for the mun bers in our progre.qs n:ports. CLASI maintains a clients database wi th
delai.led information retained about our c lie nts, outcomes, how thcy arc served and all
other relevant information u.qcd in reporting to the OVW. Reports are produced through
interrogation of th is database and results are reported to the OVW. AI! supporting
documentation for the numbers provided to the OVW is retained with our copy of the
report provided to the OVW.

Budget Management and Control

         Whilc CLASI did not tmck expenditures by approved budget categories, wc can
justify the expenditurc.<; a nd funds drawn down throughout life of the grant.

Program Performance

       Meal!'uring l'crformam:c

        Wt: agn;c with the 0 1 assessment that CLASI provided sufficient evidence to
                              0
demonstrate that the goals a nd objectives set forth in the program narratives were being
achieved. CLAST is an effective provider of services required by the victims of Domestic
violence, and is the only agency providing those services in Kent and Sussex Counties in
Delaware. In achieving those goals. all of the grant funds expcnded were appropriately
spent to meet the needs ofthe victims.

       Pl"ogram Sustainability

         We agree with the 0 10 assessment that the absence ofOVW fundi ng would
impair the ability o f CLAS l lo furnish ongoing legal serviecs to victims. CLASI is the
only organ.iwtion providing such services to the victims in Kent and Sussex Counties in
the Slate of Delaware. Without the OVW funding o r this grdnt the victims in the two
southern counties in Delaware would be without any legal services to protect and assert
their legal remediC!; against their perpetrators.




                                         - 29 -
Community Legal Aid Society, Inc.
Page 5 of5


Compliance with other Grant Rt'quirements

       We agree with the OTO a~~essmcnt the CLASI was in compliance with each ofthe
27 special conditions included in the original grant award and its two supplements.


Conclusions

       CLAST is the sole provider of Legal Services for Victims in Kent and Sus.o;ex
counties in the State of Delaware. As the OIG has indicated in its draft report, CLAST is
al'hil'viug till.; gOi:tb v [ LIn:: gHUlt alill has u..Hnp lieu with all 27 special l'{)nditjons indudcd
in the grant and iL~ supplemenlq. CLAST has provided effective and efficient services to
the victims of domestic vioh::nce in Delaware, but, without this fmding CLAST could not
continue its work protecting the legal interests of victims. and those victi ms would be
without legal assistancc. It is therefore, imperative that the OVW continue funding
CLASI to ensure the legallighL'; of victi ms in Delaware ean be asserted.

      CLAST has contacted, a nd is c urrently working with, the OVW to address the
recommendations made by the OIG to OVW and we look forward to resolving those
recommendations yet to be implemented.




                                               - 30 -
                                                                            APPENDIX V 



                   OFFICE ON VIOLENCE AGAINST WOMEN 

                  RESPONSE TO THE DRAFT AUDIT REPORT 





                                                          July 23, 2010


MEMORANDUM

TO:       	          Thomas O. Puerzer
                     Regional Audit Manager
                     Philadelphia Regional Audit Office

FROM: 	              Susan B. Carbon
                     Director
                     Office on Violence Against Women

                     Rodney Samuels
                     Audit Liaison
                     Office on Violence Against Women

SUBJECT: 	           Response to the Draft Audit Report, Office on Violence Against Women
                     Legal Assistance for Victims Grant Awarded to the Community Legal Aid
                     Society, Inc. Wilmington, DE
                     Grant Number 2005-WL-AX-0056 with supplements – Draft Audit
                     Report.


This memorandum is in response to your correspondence dated May 14, 2010 transmitting the
above draft Follow-Up and Review Investigation report for the CLASI. We consider the subject
report resolved and request written acceptance of this action from your office.

The report contains seven recommendations, $829,340 in unsupported and unallowable
expenditures. The following is our analysis of the audit recommendations.

   1) Remedy $829,340 in unsupported and unallowable expenditures and ensure that
      CLASI implements an accounting system that can completely and accurately
      gather, record, and report the data for the OVW grant.

       We agree with this recommendation. We will coordinate with CLASI to obtain the
       necessary documents to ensure that they remedy the $829,340 in unsupported and
       unallowable costs.

                                          - 31 -
2) Ensure that CLASI develops and implements a reliable, consistent, verifiable, and
   documented methodology to calculate overhead expenditures that are charged to the
   OVW grant.

   We agree with the recommendation. We will coordinate with CLASI to ensure that they
   develop and implement a reliable, consistent, verifiable, and documented methodology to
   calculate overhead expenditures that are charged to the OVW grant.


3) Remedy all unsupported and unallowable personnel and fringe benefit
   expenditures.

   We agree with the recommendation. We will coordinate with CLASI to obtain a copy of
   procedures implemented to ensure that they remedy all unsupported and unallowable
   personnel and fringe benefit expenditures.

4) Ensure that CLASI implements and adheres to procedures to adequately monitor
   contractors.

   We agree with the recommendation. We will coordinate with CLASI to obtain a copy
   of procedures to ensure that they implement and adhere to those policies as it relates to
   adequately monitoring contractors.

5) Ensure that CLASI implements a formalized and written process to ensure that an
   adequate system is in place to keep track of drawdowns.

   We agree with the recommendation. We will coordinate with CLASI to obtain a copy of
   written procedures that will ensure that an adequate system is in place to track
   drawdowns.

6) Ensure that CLASI implements and adheres to procedures that will result in the
   timely and accurate submission of Financial Status Reports.

   We agree with the recommendation. We will coordinate with CLASI to obtain a copy
   of procedures to ensure that they implement and adhere to the timely and accurate
   submission of Financial Status Reports.

7) Ensure that CLASI implements and adheres to procedures to track expenditures by
   budget categories and to monitor budget versus actual spending on a consistent and
   ongoing basis.

   We agree with the recommendation. We will coordinate with CLASI to obtain a copy
   of procedures to ensure that they implement and adhere to the procedures that will track
   expenditures by budget categories and to monitor budget versus actual spending on a
   consistent and ongoing basis.

                                         - 32 -
We appreciate the opportunity to review and comment on the draft report. If you have any
questions or require additional information, please contact Rodney Samuels of my staff at
(202) 514-9820.


cc: 	 Kotora Padgett
      Accounting Officer
      Office on Violence Against Women (OVW)

     Richard P. Theis
     Assistant Director
     Audit Liaison Group
     Justice Management Division

     William Dunne
     Interim Executive Director
     Community Legal Aid Society, Inc. (CLASI)

     Shannon Gaskins
     Program Specialist
     Office on Violence Against Women




                                            - 33 -
                                                                APPENDIX VI 



         OIG, AUDIT DIVISION, ANALYSIS AND SUMMARY OF 

            ACTIONS NECESSARY TO CLOSE THE REPORT 


      We provided the draft report to the Community Legal Aid Society, Inc.,
(CLASI) and the Office on Violence Against Women (OVW) for review and
comment. CLASI’s response is included as Appendix IV of this report, and
OVW’s response is included as Appendix V. CLASI agreed with one
recommendation, disagreed with one recommendation, and did not state an
opinion on the remaining five recommendations. OVW agreed with all seven
recommendations. We consider all seven recommendations resolved based
on OVW’s agreement. The status and actions necessary to close each
recommendation, along with a discussion of the responses from CLASI and
OVW, are provided below.

     During the onsite fieldwork for this audit, the specific questioned costs
were discussed in detail with CLASI officials. The status and actions
necessary to close each recommendation, along with a discussion of the
responses from CLASI and OVW, are provided below.

1. Resolved. Remedy $829,340 in unsupported and unallowable
   expenditures and ensure CLASI implements an accounting system that
   can completely and accurately gather, record, and report the data for the
   OVW grant.

   In its response, CLASI said the expenditures are supported by a detailed
   invoice and that they are able to show that the funds expended for the
   grant were justified. The CLASI response also acknowledged that while
   controls were weak during the early part of the grant, those controls have
   been remedied. Moreover, the CLASI response denied the potential for
   fraud, waste, and abuse for any of the grant funds. However, throughout
   our audit we repeatedly requested supporting documentation for these
   expenditures but CLASI was unable to provide adequate supporting
   documentation. During the onsite fieldwork, CLASI provided multiple sets
   of accounting records that proved to be unreliable and precluded us from
   performing any detailed transaction testing to determine what was
   actually spent using grant funds. In our judgment, the absence of
   adequate and reliable supporting documentation as required by the grant
   award significantly increases the potential for grant funds being at risk for
   fraud, waste, and misuse.

   In its response, OVW agreed with our recommendation and said it will
   coordinate with CLASI to obtain the necessary documents to ensure they
   remedy the $829,340 in unsupported and unallowable costs. This
   recommendation is resolved based on OVW’s concurrence and agreement

                                     - 34 -
  to remedy the unallowable and unsupported expenditures. This
  recommendation can be closed when we receive documentation
  demonstrating that OVW has remedied the $829,340 in unsupported and
  unallowable expenditures.

2. Resolved. Ensure CLASI develops and implements a reliable, consistent,
   verifiable, and documented methodology to calculate overhead
   expenditures that are charged to the OVW grant.

  In its response, CLASI agreed that it had some difficulty in recreating
  some records in the early part of the grant, but reiterated that those
  internal control deficiencies have been corrected and CLASI can justify
  the total funds expended on the grant. CLASI also said that their
  overhead allocation method is an approved method by the Office of
  Management and Budget and has been used throughout the latter part of
  the grant. However, during the onsite fieldwork, we reviewed several
  overhead and supply expenditures and attempted to follow CLASI’s
  methodology to recalculate the expenditures. We were unable to verify
  many of the amounts charged to the grant for overhead and supplies.

  In its response, OVW agreed with our recommendation and said it will
  coordinate to ensure that CLASI develops and implements a reliable,
  consistent, verifiable, and documented methodology to calculate
  overhead expenditures that are charged to the OVW grant. This
  recommendation is resolved based on OVW’s concurrence and agreement
  to coordinate with CLASI in developing and implementing corrective
  action. This recommendation can be closed when we receive
  documentation demonstrating that CLASI has a reliable, consistent,
  verifiable, and documented methodology to calculate overhead
  expenditures that are charged to the OVW grant.

3. Resolved. Remedy all unsupported and unallowable personnel and
   fringe benefit expenditures.

  In its response, CLASI disagrees with the OIG’s assessment that
  employees’ salaries and time associated with those salaries were not
  adequately recorded and charged to the grant. The CLASI response also
  included an explanation of its salary and fringe benefits allocation
  methodology, and an example of how that methodology was applied.
  CLASI also said paralegals were included in its budget since 2008.
  However, during the onsite fieldwork, CLASI was unable to provide us
  supporting documentation or an explanation of its allocation methodology
  for the time periods we selected for transaction testing. Additionally, the
  grant award budget that was approved for the second supplement to the

                                   - 35 -
  grant, which covered a 2-year period from October 2007 to September
  2009, did not include paralegals in any approved budget category. From
  our review we determined that paralegals were not included in the
  approved budget until 2009.

  In its response, OVW agreed with our recommendation and said it will
  coordinate with CLASI to obtain a copy of procedures implemented to
  ensure they remedy all unsupported and unallowed personnel and fringe
  benefit expenditures. This recommendation is resolved based on OVW’s
  concurrence and agreement to remedy the unallowable and unsupported
  expenditures. This recommendation can be closed when we receive
  documentation demonstrating that OVW has remedied the unsupported
  and unallowed expenditures associated with personnel and fringe
  benefits.

4. Resolved. Ensure that CLASI implements and adheres to procedures to
   adequately monitor contractors.

  In its response, CLASI said it has put together a regimen to monitor
  subgrantees to meet the requirements of the Office of Justice Programs
  (OJP) Financial Guide. CLASI further said it monitored program
  compliance by meeting quarterly with subgrantees to review caseloads
  and service coordination, and that it paid financial draws to subgrantees
  upon the submission of detailed invoices indicating the work performed
  under the program. However, during our onsite fieldwork, we did not
  identify what we considered sufficient or adequate supporting
  documentation from the subgrantees. Additionally, in our discussions
  with CLASI officials we were told that contractor monitoring was not
  performed because CLASI did not have enough employees to do so.

  In its response, OVW agreed with our recommendation and said it will
  coordinate with CLASI to obtain a copy of procedures to ensure that it
  implements and adheres to those policies as it relates to adequately
  monitoring contractors. This recommendation is resolved based on
  OVW’s concurrence and agreement to coordinate with CLASI in taking
  corrective action for monitoring contractors. This recommendation can be
  closed when we receive a copy of written procedures developed and
  implemented to ensure that adequate contractor monitoring is established
  for future federal awards.

5. Resolved. Ensure that CLASI implements a formalized and written
   process to ensure that an adequate system is in place to keep track of
   drawdowns.


                                   - 36 -
   In its response, CLASI agreed that drawdown requests were made for
   amounts that were less than the amount actually used to fund
   expenditures incurred for grant related purposes. CLASI also said they
   have procedures in place and documentation supporting the funds
   requested, and that those requests match their accounting records.
   However, as we stated in the report, CLASI relied on an undocumented
   methodology in making its funding requests (drawdowns). We were only
   told by CLASI officials after onsite fieldwork had ended that it was
   maintaining supporting documentation and that the drawdowns were now
   accurate and matched the accounting records.

   In its response, OVW agreed with our recommendation and said it will
   coordinate with CLASI to obtain a copy of written procedures that will
   ensure that an adequate system is in place to track drawdowns. This
   recommendation is resolved based on OVW’s concurrence and agreement
   to coordinate with CLASI in taking corrective action for systematically
   keeping track of drawdowns. This recommendation can be closed when
   we receive documentation demonstrating that CLASI has implemented
   procedures that ensure an adequate system is in place to keep track of
   drawdowns.

6. Resolved. Ensure that CLASI implements and adheres to procedures
   that will result in the timely and accurate submission of Financial Status
   Reports.

   In its response, CLASI acknowledged that some of the Financial Status
   Reports were late early in the grant. CLASI said it has rectified the
   situation since a new Chief Financial Officer was hired in 2008. The
   CLASI response was silent about the issue we raised that CLASI’s
   accounting records did not match Financial Status Report amounts
   reported to the Office of Justice Programs.

   In its response, OVW agreed with our recommendation and said it will
   coordinate with CLASI to obtain a copy of written procedures to ensure
   that they implement and adhere to the timely and accurate submission of
   Financial Status Reports (FSR). This recommendation is resolved based
   on OVW’s concurrence and agreement to coordinate with CLASI in taking
   corrective action for timely and accurate Financial Status Report
   submissions. This recommendation can be closed when we receive
   documentation demonstrating that CLASI has implemented procedures to
   ensure the timely and accurate submission of Financial Status Reports.




                                    - 37 -
7. Resolved. Ensure that CLASI implements and adheres to procedures to
   track expenditures by budget categories and to monitor budget versus
   actual spending on a consistent basis.

  In its response, CLASI said that even though they did not track
  expenditures by budget categories, they can justify the expenditures and
  funds drawn down throughout the life of the grant. However, because
  CLASI did not track costs by approved budget categories, or monitor the
  budget versus actual expenses, we could not determine if CLASI spent
  grant funds according to the defined budget categories because the
  accounting records CLASI provided were unreliable.

  In its response, OVW agreed with our recommendation and said it will
  ensure that CLASI implements and adheres to procedures that will track
  expenditures by budget category and monitors the budget versus actual
  spending on a consistent and ongoing basis. This recommendation is
  resolved based on OVW’s concurrence and agreement to coordinate with
  CLASI in taking corrective action to improve budget management and
  control. This recommendation can be closed when we receive
  documentation demonstrating that CLASI has implemented procedures
  ensuring that grant-related expenditures are being tracked by budget
  category and that budget versus actual spending is monitored on a
  consistent and ongoing basis.




                                  - 38 -
